U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




       International Trade Administration

                Philadelphia USEAC Network
          Provides Good Service to Clients, but
                Oversight and Export Success
               Reporting Need to be Improved


       Final Inspection Report No. IPE-16402/March 2004




                            PUBLIC
                            RELEASE



            Office of Inspections and Program Evaluations

U.S. Department of Commerce                                                                                    Final Report IPE-16402

Office of Inspector General                                                                                               March 2004




                                                  TABLE OF CONTENTS



EXECUTIVE SUMMARY ..............................................................................................................i


BACKGROUND .............................................................................................................................1


OBJECTIVES, SCOPE, AND METHODOLOGY.........................................................................3


OBSERVATIONS AND CONCLUSIONS ....................................................................................4


I.	       Strong Trade Partner Relations Exist, but Gaps in Leadership Undercut Relations and 

          Office Operations .................................................................................................................4

          A. Good trade partner relations exist across the Philadelphia Network ..........................4

          B. Gaps in leadership hinder partner relations and office operations .............................5


II. 	     Client Satisfaction is High, but the Reporting and Review of Export Successes and Client 

          Records Need to be Improved .............................................................................................9

          A. Clients are satisfied with the Network’s trade assistance ...........................................9

          B. Some export successes are problematic......................................................................9

          C. Chain of events for an export success is not always clearly documented ................14

          D. Services to repeat clients may limit assistance available to new clients ..................16

          E. Performance of the NOVA USEAC needs to be evaluated......................................17


III. 	    Inadequate Oversight of Network Travel Has Permitted Questionable Travel Practices 

          and Reimbursements..........................................................................................................20

          A. Appropriate signatures were not on travel claims ....................................................20

          B. Travel claims were not well documented .................................................................21

          C. Excessive use of a rental car was not questioned .....................................................22

          D. Transition to an electronic travel manager software was problematic .....................24


IV.	      Financial and Administrative Operations Are Generally Sound, with a Few Exceptions .26
          A. Some cost-cutting measures are being taken............................................................26

          B. Purchase cardholders are exceeding spending thresholds ........................................26

          C. Advance payments were made for cellular telephone expenses...............................27

          D. Card-sharing violation resulted in sales tax charges on government purchases.......28

          E. Increased oversight of cellular telephone usage is needed .......................................29

          F. Payment of employee parking expenses needs closer scrutiny ................................30


SUMMARY OF RECOMMENDATIONS...................................................................................31


APPENDICES
     A. List of Acronyms ......................................................................................................34

     B. Agency Response to the Draft Report ......................................................................35

U.S. Department of Commerce                                                            Final Report IPE-16402

Office of Inspector General                                                                       March 2004


                                       EXECUTIVE SUMMARY 


The Department of Commerce’s International Trade Administration (ITA) plays a major role in
leading the federal government’s efforts to increase U.S. exports. ITA’s U.S. Commercial
Service, 1 as the Department’s key export promotion agency, works closely with the U.S. business
community and federal, state, and local trade partners to promote export awareness and U.S.
sales abroad.

Currently, the Commercial Service, through its Office of Domestic Operations, operates 106
U.S. Export Assistance Centers (USEACs), grouped geographically into 12 networks. The key
objective of the USEACs is to enhance and expand federal export promotion and trade finance
services through greater cooperation and coordination between federal and non- federal trade-
related partners. 2

The Office of Inspector General conducted the on-site portion of its inspection of the operations
of several export assistance centers within the Philadelphia USEAC Network from October
through November 2003. We primarily focused our evaluation on the management, program
operations, and financial and administrative practices of the Philadelphia USEAC Network.
During fiscal year 2003, the Philadelphia USEAC Network covered the Mid-Atlantic region
composed of Delaware, the District of Columbia, Maryland, Northern Virginia, Pennsylvania,
and Central and Southern New Jersey.

Overall, we found that the export assistance centers within the Philadelphia USEAC Network are
doing a good job of providing export assistance to U.S. companies and have fairly sound
financial and administrative operations. However, we also found a few issues and concerns that
warrant the Commercial Service’s attention, in particular leadership gaps within the network,
lack of compliance with export success reporting guidelines as well as client record maintenance,
and questionable travel practices and reimbursement. Our specific observations are as follows:

Strong Trade Partner Relations Exist, but Gaps in Leadership Undercut Relations and
Office Operations . We found a number of strong, mutually beneficial working relationships
between the Philadelphia USEAC Network and a diverse mix of trade partners at the federal,
state, and local levels. Such close partnerships assist the network in providing U.S. firms with a
full range of products and services. For example, the Philadelphia USEAC and Temple
University’s Small Business Development Center interact daily to share client information,
jointly counsel clients, and cosponsor seminars. The Trenton USEAC has reached out to non­
traditional trade partners, collocating its trade specialists with Burlington County College and
Monmouth University. However, we heard from partners and trade specialists that gaps in
leadership within the Philadelphia network have impacted partner relations and office operations.
Specifically, the absence of permanent leadership within the network has caused shifting office

        1
          U.S. Commercial Service is also known as the U.S. & Foreign Commercial Service (US&FCS).
        2
          The Export Enhancement Act of 1992 directed the Commerce Department to take the lead in setting up
“one-stop shops” to assist U.S. exporters. The one-stop shops, known as USEACs, are intended to integrate the
representatives and assistance of the three principal federal agencies providing export promotion services:
Commercial Service, Export-Import Bank, and Small Business Administration. The first four USEACs were
established in January 1994, as pilot sites in Baltimore, Chicago, Long Beach, and Miami.


                                                       i
U.S. Department of Commerce                                                                Final Report IPE-16402
Office of Inspector General                                                                           March 2004

priorities and expectations and has adversely impacted long-term planning, services, and
collaboration with trade partners. For example, we were informed that the Maryland District
Export Council 3 (DEC) did not convene for a period of time because it was the USEAC director’s
responsibility to schedule the meetings. Also, we were told that a March 2003 export control
seminar, sponsored by the Mid-Atlantic DEC, was not adequately supported by Commercial
Service because of insufficient attention by the Philadelphia network director (see page 4).

Client Satisfaction is High, but the Reporting and Review of Export Successes and Client
Records Need to be Improved. The Philadelphia USEAC Network is providing products and
services its clients perceive as being of high quality. However, the network is not in full
compliance with Commercial Service’s guidelines on the reporting and review of export
successes—the agency’s key performance measure. In particular, we discovered duplicate
export success stories, reporting of estimated and projected export sales, rather than actual sales,
and poorly written success stories with data inconsistencies. These reporting errors resulted in
overstating $14.46 million (or 10 percent) of the network’s $145.13 million export value for
fiscal year 2003. The network’s export success count of 489 was also overstated by at least 30
export successes (or 6 percent). Client records were not adequately maintained for several
export successes with many records failing to document the assistance trade specialists provided
their clients. Also, we continue to be concerned that trade specialists may be focusing too much
on repeat clients to generate export successes, which may lead to the neglect of inexperienced
exporters. In addition, our review revealed poor performance by the Northern Virginia export
assistance center, in particular with regard to the number of export successes and client meetings
(see page 9).

Inadequate Oversight of Network Travel Has Permitted Questionable Travel Practices and
Reimbursements. Our examination of travel vouchers identified a number of questionable
travel practices, weak internal controls, lack of accountability, and potentially unnecessary
expenses, which were incurred and reimbursed. In particular, we found several travel vouchers
that were signed by persons other than the traveler and the appropriate authorizing/approving
official; travel that occurred without adequate documentation regarding the purpose of the trip;
travel voucher information that did not correspond with the receipts; and excessive use of a
rental car. We discovered that CS management did not review the travel vo uchers, question
whether the travel was necessary, or determine if the mode of transportation used was practicable
and commensurate with the nature and purpose of the traveler’s duties (see page 20).

Financial and Administrative Operations Are Generally Sound, with a Few Exceptions.
We found the network’s financial and administrative operations, for the most part, to be sound.
Specifically, the network’s assets are accounted for and properly used, collections are recorded
in a timely manner, and time and attendance records are properly managed. We did, however,
discover that (1) some purchase cardholders did not adhere to the $2,500 established annual
spending limit for purchase card payment of cellular telephone airtime charges, (2) sales taxes
were improperly paid on a few purchases, (3) one purchase card was shared between employees,
and (4) advance payments were improperly made for cellular telephone expenses. Further, there
is no indication that users are reviewing their cellular telephone statements and reimbursing the

        3
           District Export Councils are organizations of local leaders appointed by the Secretary of Commerce to
share their international business experiences with USEAC clients.


                                                         ii
U.S. Department of Commerce                                                   Final Report IPE-16402
Office of Inspector General                                                              March 2004

government as required for personal calls. In addition, some export assistance centers are paying
for employee parking spaces, which seems excessive and without adequate justification and
approval. Finally, we learned that the Comme rcial Service is aggressively seeking to reduce its
leasing costs for USEACs nationwide, and in fiscal year 2003, cut $59,536 from the Philadelphia
network’s lease expenditures by relocating the Trenton USEAC to free, shared office space with
three of its trade partners (see page 26).

On page 31, we offer recommendations to address our concerns.



ITA indicated that it welcomed our recommendations and the insights provided. Specifically,
the Chief Financial Officer and Director of Ad ministration for ITA stated that the agency intends
to assess internal controls associated with many of the management issues raised in the draft
report and strengthen the reporting and verification of export success and other performance
results data. ITA was pleased to learn that we found the Philadelphia USEAC Network, also
known as the Mid-Atlantic USEAC Network, to be effective at carrying out its mission. ITA’s
response to our recommendations outlines actions completed and steps to be taken to (1) timely
fill vacant office and network director positions, (2) strengthen management’s oversight of
export success data and the reporting process, (3) improve oversight of travel practices and
approval procedures, and (4) strengthen oversight of financial and administrative policies and
practices. We discuss those specific actions and other comments on our recommendations
following each appropriate section in this report. ITA’s entire response to our draft report begins
on page 35.




                                                iii
U.S. Department of Commerce                                                                   Final Report IPE-16402

Office of Inspector General                                                                              March 2004


                                                BACKGROUND 


The U.S. Commercial Service (CS)—founded in 1980 as an agency of the International Trade
Administration (ITA)—seeks to promote the export of goods and services from the United
States, particularly by small and medium-sized businesses, and to protect U.S. business interests
abroad. Through its Office of Domestic Operations (ODO), the Commercial Service operates
106 U.S. export assistance centers (USEACs) located across the United States.

The Export Enhancement Act of 1992 called for the creation of USEACs to bring together in one
location the services of all federal trade-related agencies, and thereby give U.S. firms one-stop
access to the full range of federally sponsored export promotion services and financial assistance.
In creating the USEACs, Commercial Service designed a “hub and spoke” system: a USEAC,
with collocated federal trade partners, serves as the “hub” office supporting the activities of
several “spoke” or satellite offices (also called USEACs) within a designated geographic area.

The Philadelphia USEAC—the focus of this report—was the hub office in fiscal year (FY) 2003
for five satellite offices serving the Mid-Atlantic region (Pennsylvania, Central and Southern
New Jersey, Delaware, Baltimore, Northern Virginia, and the District of Columbia), with a staff
of 26 CS employees, at the time of our review (figure 1) 4 . The network has a diverse client base,
drawn primarily from the chemical industry, computer and electronic equipment, heavy
machinery, pharmaceuticals, and professional and technical services. 5 Its trade specialists
provide one-on-one counseling and customized business solutions to small and medium- sized
U.S. firms venturing into markets abroad or seeking to expand their international activities. 6

In FY 2003, the Philadelphia USEAC Network had an operating budget of $2.7 million;
collected $166,634 in fees from its clients for CS products and services; counseled 2,175 clients;
and added 745 businesses to its client portfolio for a total network portfolio of 6,739 clients—
many of which are women- and minority-owned companies and rural concerns, traditionally
underserved sectors.




         4
           As of October 1, 2003, the Northern Virginia USEAC no longer reported to the Philadelphia USEAC
Network, becoming part of the Charlotte USEAC Network. Also, effective on October 1, 2003, the Charleston
USEAC and Wheeling USEAC, both located in West Virginia, became part of the Philadelphia USEAC Network.
         5
           Other key industries served are biotechnology, food products, rubber products, and tourism.
         6
           Counseling services may include, for example, helping clients determine their export readiness,
identifying potential export markets, and developing an overall, long-term international business strategy and
marketing plan. Trade specialists also speak at seminars, participate in export promotion initiatives with their trade
partners, promote and sell CS products and services, and work with CS’ overseas posts, which provide market
information and in-country assistance to U.S. companies.



                                                           1

U.S. Department of Commerce                                                         Final Report IPE-16402

Office of Inspector General                                                                    March 2004


Figure 1: Location and Staffing of the Philadelphia Network USEAC Offices
                                                                                    Philadelphia, PA
                      Pittsburgh, PA                                                Hub Director (acting)

                      Director
                                                     Director (FSO)

                      3 TS
                                                         3 TS

                      1 Census official               Harrisburg, PA                1 EAS

                                                      Director                      1 SBA official





                 Northern Virginia
                 Director (acting) Part- time
                 1 FSO TS                                                                        Trenton, NJ
                 3 Part-time TS                                                                  Director

                                                                                                 2 TS

                                                                                                 1 EAS

                                                                                                 1 FSS 

   Key                                                                                           3 Collocated partners
   EAS – Export Assistant Specialist
   FSO – Foreign Service Officer
   FSS – Field Support Specialist
   SBA – Small Business Administration
   TRA – Trade Reference Assistant                                                               Baltimore, MD
   TS – Trade Specialist                                                                         Director (acting)
                                                                                                 2 TS
   Note: collocated partners shown in red
                                                                                                 1 EAS
                                                                                                 1 TRA
                                                                                                 1 SBA official



As noted in figure 1, several export assistance centers within the Philadelphia network have
collocated trade partners. With regard to the Trenton USEAC, the center’s staff is located
among three different trade partners: the office director is collocated with the New Jersey
Commerce and Economic Growth Commission (Office of International Trade) in Trenton, and to
be closer to their clients, one trade specialist is collocated at the Monmouth University School of
Business Administration (West Long Branch, NJ) and the other trade specialist is located at
Burlington County College, High Technology Small Business Incubator (Mount Laurel, NJ).
Also, though the Pittsburgh USEAC shares office space with an employee of the Department of
Commerce’s Census Bureau, the two organizations do not work together on trade-related issues.

In addition to these working relationships, the           District Export Councils (DECs) consist of
Philadelphia network coordinates with other               local leaders who have international business
DOC and ITA units, District Export Councils,              expertise, which they share with USEAC
local chambers of commerce, and other trade-              clients, and thus complement the assistance
related organizations to provide export assistance;       provided by CS trade specialists. There are 56
                                                          DECs throughout the country. Council
sponsor, promote, and host trade events and               members are appointed by the Secretary of
seminars; and avoid duplication of efforts.               Commerce.




                                                 2

U.S. Department of Commerce                                                 Final Report IPE-16402

Office of Inspector General                                                            March 2004


                      OBJECTIVES, SCOPE, AND METHODOLOGY

Our purpose was to assess the effectiveness of the management, program, financial, and
administrative operations of the Philadelphia USEAC Network, including its development and
achievement of goals and objectives, and its compliance with applicable regulations and other
managerial guidance. Specifically, we sought to determine whether the network

       � plans, organizes, and controls its work and resources effectively and efficiently;
       � meets the needs of U.S. exporters and helps increase exports and market access; and
       � has appropriate internal controls and financial management practices.

To meet our objectives, we did the following:

       � Reviewed the network’s strategic work plans, which offer quantifiable performance
         measures for increasing U.S. exports, and its coordination and collaboration with
         trade partners.
       � Interviewed officials from Commercial Service and other federal agencies, as well as
         representatives from trade-related nonprofit and state agencies.
       � Surveyed network staff and a random sample of the network’s clients.
       � Evaluated coordination between the network and other trade-related organizations in
         achieving the overall goals of ITA and the Department of Commerce.
       � Examined pertinent files and records relating to the network’s operations and
         performance.

We conducted our fieldwork from October through November 2003, visiting four of the six
export assistance centers within the Philadelphia USEAC Network: Baltimore, Northern
Virginia, Philadelphia, and Trenton. We also met with several CS officials at CS headquarters in
Washington, DC. During the course of our review and at its conclusion, we discussed our
observations and findings with the past and present Philadelphia USEAC network directors as
well as ODO’s current national director and the former director for the eastern region. We also
discussed our findings with the Chief Financial Officer and Director of Administration for ITA,
as well as the Acting Director General for the U.S. and Foreign Commercial Service, and the
Acting Deputy Assistant Secretary for Domestic Operations.




                                                3

U.S. Department of Commerce                                                               Final Report IPE-16402

Office of Inspector General                                                                          March 2004


                              OBSERVATIONS AND CONCLUSIONS


I.	     Strong Trade Partner Relations Exist, but Gaps in Leadership Undercut Relations
        and Office Operations

The Philadelphia USEAC Network maintains strong, mutually beneficial relationships with a
diverse mix of trade partners—SBA, Export-Import Bank (Ex-Im), District Export Councils
(DECs), state government trade offices, chambers of commerce, universities, and nonprofit
organizations—and thus is able to leverage a full range of export-related products and services
for its clients. A number of these partners, however, as well as several trade specialists reported
that gaps in leadership within the Philadelphia network have undercut partner relations and office
operations.

A. 	    Good trade partner relations exist across the Philadelphia Network

Cooperative relationships occur when trade specialists from a range of trade-related
organizations work together to provide customers “the best the government has to offer,” and
thus facilitate the smooth delivery of export assistance. The Philadelphia network has
established such relationships at every level.

Federal Partners. The two SBA 7 managers collocated at two network USEACs (Philadelphia
and Baltimore) work very cooperatively with their CS colleagues in those two centers and the
Trenton USEAC —each referring clients to the other, cosponsoring seminars (e.g., Breaking Into
The Trade Game: A Small Business Guide to Exporting), and conducting joint counseling
sessions. Although no Ex-Im8 officials are located within the Philadelphia network, the
network’s staff works closely with the New York City-based Ex-Im office. The Philadelphia,
Trenton, and Northern Virginia USEACs all reported joint counseling and educational seminars
with Ex-Im. The SBA regional manager collocated at the Baltimore USEAC is a former Ex-Im
employee, and thus provides her expertise on Ex-Im programs to the center’s staff.

DECs. The current chairmen of the Maryland, Mid-Atlantic, and New Jersey DECs all spoke
highly of the network’s staff and mentioned several programs and initiatives they have either
sponsored or intend to sponsor with the centers. For example, the New Jersey DEC recently
worked with the Trenton USEAC, the Newark USEAC, 9 and a local community college to
provide companies with group trade counseling. The Mid-Atlantic DEC and Philadelphia
USEAC are sponsoring a Bureau of Industry & Security export control seminar in spring 2004.

State Government Partners. Maryland, Virginia, Pennsylvania, and New Jersey state
governments all actively support international trade, employ trade specialists to counsel U.S.
companies on export opportunities, and have overseas offices or representatives. 10 These states

        7
          SBA provides export information and development assistance to help small businesses take advantage of
export markets, including trade counseling, training, legal assistance, and publications.
        8
          Ex-Im supports the financing of exports of U.S. goods and services by assuming credit risks for borrowers
and countries that the private sector is unable or unwilling to accept.
        9
          The Newark USEAC is part of the New York USEAC Network.
        10
           For example, Pennsylvania has a presence in 14 countries, Maryland in 11, New Jersey in 8, and Virginia
in 6.


                                                        4

U.S. Department of Commerce                                                      Final Report IPE-16402
Office of Inspector General                                                                 March 2004

also provide products and services similar to those of Commercial Service, but generally free of
charge.

Working relationships between the USEACs and the state- level trade offices in Maryland,
Pennsylvania, and New Jersey are strong. Trade specialists meet regularly and collaborate on a
variety of activities, such as counseling, export success reporting, and development of client
solutions.

Other Partners. One of the most impressive local trade partnerships within the Philadelphia
network is that between the Philadelphia USEAC and Temple University’s Small Business
Development Center (SBDC). The Small Business Administration administers and partially
funds the SBDC program, a cooperative public-private venture that provides small businesses
with a wide variety of management and technical assistance, information, and guidance.
Temple’s SBDC has a strong international program, and maintains daily interaction with the
Philadelphia USEAC via client referrals, joint counseling, and cosponsored seminars. The
SBDC also works closely with the Trenton USEAC.

Other strong relationships exist between the Baltimore USEAC and the Maryland-China
Business Council, a nonprofit organization that seeks to increase business understanding and
activity between Maryland firms and China; the Northern Virginia (NOVA) USEAC and the
Winchester-Frederick County Chamber of Commerce; and, as noted earlier, the Trenton USEAC
and local academic institutions, two of which provide office space to Trenton trade specialists.

B.      Gaps in leadership hinder partner relations and office operations

Turnover in director- level positions has occurred in 3 of the 6 network offices in recent years
(figure 2), which has had an impact on partner relations and overall office operations. The
Philadelphia network director position has been vacant twice since FY 2002. Most recently, it
was vacant for over four months, although in the preceding months it was only filled part-time,
as the director was away training for an overseas assignment. The Baltimore USEAC has been
without a director for a year and a half, and the NOVA USEAC for six months. Although acting
directors are designated to fill these spots either officially or unofficially, office operations often
suffer in the absence of permanent leadership and the shifting of focus and priorities that
inevitably accompanies changes in office director management.

Figure 2: Director Vacancies in the Philadelphia USEAC Network (FY 2002 through January 2004)
                                                                                          Jan.
                               2002                                   2003
                                                                                          2004
Philadelphia
Baltimore
Northern Va.

    Color Key        Permanently filled          Part-time/Training                  Vacant
Source: Commercial Service




                                                   5

U.S. Department of Commerce                                                                Final Report IPE-16402

Office of Inspector General                                                                           March 2004


Philadelphia. Historically, leadership at the Philadelphia USEAC has been short term—a
foreign service officer (FSO) served as the network director from 1996 through 1998, the
standard 2-year term for FSO assignments. Following the officer’s departure, a spoke office
director served as acting network director for 1 year.
A permanent replacement was hired in December
1999, performed a short-term overseas assignment
in the fall 2002, and accepted, in November 2002, a       “… leadership quality has lacked
limited appointment into the Foreign Service.             because of frequent changes and
Though the network director’s original May 2003        director position vacanc[ies] extending
                                                             beyond a one year period.”
departure was delayed until mid-August, a
significant amount of his time was spent in
                                                                  Trade Specialist
Washington, DC, training for the overseas
assignment prior to departure; consequently, the
network did not have a dedicated full-time network
director for most of FY 2003.

We found that CS officials did little to ensure that office and network management
responsibilities were adequately carried out during the departing network director’s transition to
the Foreign Service. As a result, some problems with partner relationships occurred. For
example, the Mid-Atlantic DEC chair resigned when the departing director failed to provide
promised assistance for a March 2003 DEC event, as he was in training for his new
appointment. 11 In addition, staff and trade partners perceived that the office was not running
smoothly. For instance, a trade partner told us that the Philadelphia USEAC staff appeared
demoralized because of the lack of hands-on management. 12

Baltimore. The Baltimore USEAC currently has an experienced acting director, who has helped
maintain stability and focus for the office. But the absence of permanent leadership for sixteen
or more months tends to moderate activities that may well be prioritized or pursued differently
when a permanent leader comes on board. Because of the long delay in filling the Baltimore
position permanently, the change could disrupt the partner relationships and staff operations that
have been put in place over the past year.

Northern Virginia. Since opening in FY 1998, this office has had 2 permanent directors, and 2
vacancy periods during which acting directors were in charge—the first lasting 10 months, and
the second in effect since September 2003, although the director was no longer physically
located in the Washington, DC area the last 2 months of his tenure, after he transferred to another
USEAC. (As we prepared this report, a permanent director still had not been hired.) We found
that the Northern Virginia office had the weakest partner relations of all the Philadelphia network
centers and the poorest performance overall (see Chapter II, Section E), and thus appears in
particular need of strong, stable leadership.



        11
            We were told that the recent assignment of an FSO as the Philadelphia office director, who is performing
responsibilities that were previously handled by the former network director, has substantially improved partner
relations in recent months.
         12
            In December 2003, a permanent network director was hired for the Philadelphia USEAC Network.


                                                         6

U.S. Department of Commerce                                                              Final Report IPE-16402
Office of Inspector General                                                                         March 2004

According to the national director for the eastern region, the decision to hold off on filling the
Baltimore and NOVA director positions was intentional: a senior ITA official decided that
management vacancies would be announced and filled consecutively, rather than concurrently,
and that the network director spot would be filled first. This strategy would allow staff multiple
opportunities to apply for director positions and allow management to rotate staff into those
positions, if needed.

In the meantime, however, the management voids have left many partners with the impression
that the USEACs are “leaderless,” and they report that collaborative activities and office
operations have suffered as a result. For example, DEC chairs we spoke with stated that when
the centers lack stable director leadership, councils do not convene. The USEAC directors are
responsible for scheduling the DEC meetings and serving as the councils’ executive
secretaries13 —duties that cannot be carried out when positions are vacant, and that may not be
carried out by directors who—like the former Philadelphia network director—are busy preparing
to move on.

In addition, office operations suffer. The failure to officially appoint an interim director resulted
in a senior trade specialist unofficially conducting many of the network director’s responsibilities
(signing staff performance plans, for example). A state partner commented that trade specialists
from one of the centers were not talking and cooperating with one another, and a trade specialist
from another center stated that the “numerous changes in office management have made it
[working at the USEAC] at times frustrating because of shifting priorities and expectations.”
Trade specialists and partners alike noted that the lack of stable leadership impacts strategic
long-term planning.

Recommendation. Commercial Service should ensure that management positions are filled
quickly and that interim leadership is closely monitored by headquarters and has the skills to
ensure smooth continuity of USEAC operations.



ITA agreed with our recommendation and stated that it is “working to fill these positions in a
manner that maintains good partner [and] client relations over the short term while safeguarding
[its] ability to place the most qualified candidates in these key leadership positions to ensure
effectiveness over the long term.” ITA concurs that interim leadership must be closely
monitored by headquarters and have the skills to ensure smooth continuity of operations.
ITA added that the Philadelphia network director and the NOVA and Pittsburgh office director
positions have been filled with permanent directors, who previously served as acting directors.
Thus, ITA believes that they have demonstrated the skills necessary to ensure a smooth
continuity of operations. ITA anticipates that these directors will remain in their positions for
some time, which will add to the stability of staff and partner care.




        13
            The 1994 DEC handbook states that USEAC office directors are to serve as the councils’ executive
secretaries.


                                                        7

U.S. Department of Commerce                                               Final Report IPE-16402
Office of Inspector General                                                          March 2004

We support ITA’s action to place permanent directors within the Philadelphia US EAC Network
and look forward to learning of the selection made for the Baltimore office director position.
The actions taken and outlined by ITA meet the intent of our recommendation.




                                               8

U.S. Department of Commerce                                                                  Final Report IPE-16402
Office of Inspector General                                                                             March 2004

II. 	   Client Satisfaction is High, but the Reporting and Review of Export Successes and
        Client Records Need to be Improved

The Philadelphia USEAC Network is providing quality products and services to its clients.
However, we found that the network has overstated its performance results and is not in full
compliance with Commercial Service’s guidelines on the reporting and review of export
successes—Commercial Service’s key performance measure—as well as the maintenance of
client records. Problems discovered include duplicate export success stories, reporting estimated
and projected export sales, rather than actual sales, and client records which do not sufficiently
support successes reported. At the same time, trade specialists are focusing much attention on
repeat clients perhaps at the expense of cultiva ting new ones, and using an unauthorized survey
form to obtain export sales data from clients. Also, our review revealed a performance issue at
the Northern Virginia USEAC.

A.	     Clients are satisfied with the Network’s trade assistance

We surveyed 42 customers regarding their experiences working with the network’s export
assistance centers and obtained feedback from 38. Overall the clients were quite satisfied with
the counseling services and products provided by the Philadelphia network. Clients described
the network’s staff as responsive and conscientious, knowledgeable of overseas markets, and
well connected to business and U.S. government contacts abroad. They reported that the
products and services largely met their expectations for timeliness and quality, though some
clients felt the fees for some products were too high. Many clients also remarked that they
appreciate the availability of the centers and readily use them when they need export advice or
market counseling. Several clients stated that the trade specialists keep them informed of market
conditions, issues affecting exports, and upcoming events primarily through E- mails.

Client satisfaction is inextricably connected with a trade specialist’s performance. Recognizing
this, Commercial Service, under its FY 2004 performance measure initiative, has made customer
satisfaction a specific performance measure. We support this action. Based on the client
feedback we received, it is clearly to Commercial Service’s advantage to measure not only
export successes, but also the work trade specialists do on behalf of their clients, which may not
immediately lead to export successes.

B. 	    Some export successes are problematic

Both trade specialists and office directors have annual export success performance goals, and
each center has an overall goal based on staffing and specialist grade levels. 14 Information on
each export success is recorded in CS’ client management system (CMS) by a trade specialist but
it must be reviewed and approved by his/her office director, who then forwards the success
record to the network director for final review and approval. An office director forwards his/her
export success records directly to the network director. We were told that staff to the ODO
national western and eastern regional directors then randomly spot-check the approved export


        14
             For example, a trade specialist at grade level 13 was expected to realize 35 export successes during FY
2003.


                                                           9

U.S. Department of Commerce                                                                  Final Report IPE-16402
Office of Inspector General                                                                             March 2004

successes, as called for in ODO’s guidelines. If problems are identified, staff is to bring them to
the attention of the appropriate regional director.

In reporting their export successes in narrative form,                  Commercial Service uses export success data
trade specialists and office directors are expected to                  to assess the performance of USEACs and
briefly describe the client company, what it does and                   trade specialists and determine whether
where it does business; then explain the chain of events                organizational goals and objectives are being
                                                                        met. OMB and Congress use this data when
leading to the success—that is, what assistance was                     reviewing Commercial Service’s
provided and when to make the success happen                            performance and funding levels . The
including any actions by other CS or ITA staff as well                  Commercial Service Operations Manual
as federal, state, or local trade partners who assisted                 describes export successes as follows:
with the success. Per the guidelines, there must be a
                                                                           �•  An actual verifiable export sale—
direct link between the USEAC assistance provided and                        shipment of goods or delivery of
the reported outcome. Client records must include                            services.
sufficient supporting documentation such that anyone                       �•  The legally binding signing of an
reading the documentation would understand the link                          agreement, including agent/distributor,
between the CS service provided and the result                               representation, joint venture, strategic
                                                                             alliance, licensing, and franchising or the
reported.                                                                    signing of a contract by the client, with
                                                                             sales expected in the future.*
For FY 2003, the Philadelphia network had an export                        �•  Resolution of a trade complaint or
success goal of 566, but fell short, reporting just 489                      dispute on behalf of the client—avoiding
successes. Failure to reach quotas may be due to                             harm or loss.
                                                                           �•     Removal of a market access barrier,
inadequate performance by an individual staff member                         including standards, regulations, testing
or a particular office; or it may be a reflection of an                      and certification—opening a market for
economic downturn within a market sector or                                  U.S. firms.
                                                             * The signing of a contract and an export sale
geographical area. We were told that FSOs, in                immediately thereafter (within 3 months),

particular, can have difficulty meeting their annual         related to the same contract, must be reported 

goals if they are assigned client portfolios that are not    as a single export success.

well developed and that, on average, it takes 2 years for 

a client to realize an export success—the length of an FSO’s domestic tenure. 


We reviewed approximately 20 percent 15 of the 489 approved export successes for the period 

October 1, 2002, through September 30, 2003, 16 and found a number of problems:


              � duplicate export success stories,

              � reporting of expected or projected export sales, rather than actual, verifiable sales,

              � success stories which do not fit the definition of an export success,

              � narratives that do not clearly demonstrate the link between the assistance provided 

                and the reported outcome,
              � poorly written success stories with typographical and classification errors, such
                as, indicating the wrong product type, success amount or success type, and
              � poorly maintained client records in CMS, which do not document or clearly
                demonstrate the chain of events that led to an export success.

         15
           If we identified a concern with a particular success in our sample , we then reviewed all the export
successes approved for that particular company during FY 2003.
        16
           There was an acting network director in place from mid-August through September 2003.


                                                          10

U.S. Department of Commerce                                                   Final Report IPE-16402
Office of Inspector General                                                              March 2004

Reporting inaccurate export successes that do not conform to the Operations Manual guidelines
is a serious concern. ODO uses reported export success data to assess the performance of
USEACs and trade specialists to determine whether they are meeting organizational goals and
objectives. OMB and Congress use the data when reviewing Commercial Service performance
and funding levels. Recognizing the importance of accurate reporting, and in response to earlier
OIG reports that cited overstated performance claims by some overseas posts, Commercial
Service formed a working group in FY 2003, to study the performance measures and export
success guidelines. The group was charged with making sure the organization is measuring the
right activities and results, as well as with simplifying and clarifying the CS measures to ensure
accuracy and consistency across the organization. Based on the working group’s findings and
conclusions, Commercial Service issued new export success guidelines effective October 1,
2003. As part of our examination, we consulted the new guidelines to determine if they address
some of the reporting errors we discovered.

Inflated Export Success Count

The Philadelphia network overstated its FY 2003 export success count by at least 30.
Specifically, it tallied 7 of the same successes twice—claiming the same U.S. company, same
export market, same success amount, and same chain of events leading to the success. It
included 2 others that did not meet the definition of an export success. In the first instance, the
trade specialist provided a company with market intelligence, which prompted the company to
realign resources and product focus but resulted in no export sales, joint ventur es, or
agent/distributor agreements. In the second instance, a trade specialist working with an overseas
post helped resolve a commission dispute between a U.S. firm and its Asian agent/distributor,
which resulted in payment of $36,834 from the U.S. firm to the agent. While this situation
highlights the good work trade specialists do to help companies maintain sales relationships, no
trade complaint was resolved to the U.S. firm’s benefit, no export sale realized, and no legally
binding agreement executed. We note that, under its FY 2004 performance measure initiative,
Commercial Service has added a new Highlights database that will serve as a repository for trade
specialists’ work products that are not directly related to an export sale.

The network also incorrectly claimed 19 export successes for educational services. In this case,
with the assistance of Commercial Service, a U.S. medical consortium recruited a class of 20
Brazilian doctors to a training program. The event was reported as 20 separate success stories
rather than one. The reporting guidelines in place during FY 2003, did not specifically address
such a situation, so we asked the national director for the western region how it should have been
handled. He stated that if the individuals came to the United States as a group to attend the
program, then one export success should have been claimed as one export transaction occurred.
We note that the new export success guidelines contain clearer instructions on the correct
reporting format for the purchase of U.S. education by foreign students.

In addition, we identified the incorrect reporting of monthly sales which led to the over reporting
of 2 export successes. In this case, a trade specialist provided market research to a client who
was already doing business with a foreign distributor. As a result of the research, the U.S.
company signed an exclusive agreement with the distributor and then realized monthly sales.
The trade specialist reported 4 export successes to record the client’s monthly sales. However,



                                                11

U.S. Department of Commerce                                                          Final Report IPE-16402
Office of Inspector General                                                                     March 2004

as indicated in the Operations Manual, an increase-to- market sale “represents the total of
additional sales into an existing market over a period of time (6 months minimum), rather than
each and every additional sale into that market.” Therefore, it appears that the trade specialist
should have put forward at most 2, and not 4, export successes: the first reporting the signing of
the exclusive distributor agreement and the second reporting the total monthly export sales made
to the distributor.

Overstated Export Success Values

The value of the network’s export successes was overstated by $14.46 million, or approximately
10 percent of the $145.13 million export value reported for FY 2003. The reasons for the
overstated value s are the reporting of (1) duplicate export successes, (2) assistance which did not
meet the definition of an export success, and (3) estimated and projected export sales. As
indicated above, 7 duplicate export successes were reported which resulted in $142,500 of
exports being overstated. One of the success stories which did not meet the definition of an
export success had a success amount of $36,834.

In 10 instances the Philadelphia network reported estimated or projected sales as the export
success va lue rather than actual sales as required in the Operations Manual. The Manual
specifically states: “Only claim on the dollar value of the report the actual amount of
product/service that has already been sold. Projected or anticipated sales, etc. are not allowed on
the dollar value line of the report as the sales have not yet been consummated.” Approximately
$14.28 million of estimated or projected sales were reported as the actual sales amount by the
network.

In its response to our draft report on the Chicago USEAC Network, 17 Commercial Service
discussed the industry specific challenges and client sensitivities that trade specialists face when
trying to obtain exact export sales information from clients. Specifically, Commercial Service
stated, “Unbekno wnst to our Trade Specialists, clients will often estimate sales that will accrue
from a signed agent or distributor agreement. Clients also have difficulty reporting accurate
sales figures for transactions in certain industries [e.g., services industry].” We appreciate
Commercial Service’s feedback and understand that clients at times cannot or may not want to
divulge the exact dollar value of a sale. However, as Commercial Service stated in its response,
it is incumbent on the organization to “ensure that accuracy in dollar value reporting remains
paramount.”

Other Problems Identified

Other problems found included typographical errors, inconsistencies in terms of the country of
success and success amounts reported, incorrect success type, and insufficient details about the
chain of events leading to the export success. We also discovered an inconsistency in reporting
the success amount for export successes which involve Commercial Service helping a financial
institution. We reviewed three export successes put forward for a financial institution. The
success amount reported for two of those successes was the value of the export transaction

        17
           Chicago USEAC Network is Generally Operating Well But Needs to Improve Its Export Success
Reporting (IPE-16136).


                                                    12

U.S. Department of Commerce                                                   Final Report IPE-16402
Office of Inspector General                                                              March 2004

financed by the financial institution. The amount indicated for the other success was the income
to the financial institution as a result of its service. Neither the old or new export success
guidelines address this type of success and what dollar amount (i.e., export sales value or
income) should be reported as the success amount.

We are also concerned that some trade specialists may be prematurely reporting export successes
for sales contracts and exports that eventually do not occur. We understand that trade specialists
primarily learn of export transactions verbally from company officials who may, at the time, be
confident that a deal is being transacted. However, in some instances, for whatever reason, the
deals do not materialize. We believe that if a trade specialist learns that an earlier reported
export success did not materialize, then the trade specialist should request to have that export
success deleted from the database.

The errors, discrepancies, and quality control problems we identified appear to be the results of
(1) network staff’s failure to consistently follow Operations Manual guidelines for performance
reporting, and (2) management’s inadequate oversight of this data. According to the Manual,
“Managers and staff are accountable for reporting performance statistics consistent with this
guidance. Office Directors provide quality control certifications by completing approval fields
in the CMS database. Regional Directors spot-check Export Success reports.” We are
concerned that neither the office directors, former Philadelphia network director, nor the national
director for the eastern region identified the reporting errors contained within the export
successes we reviewed.

In its response to our draft report on the Chicago USEAC Network, 18 Commercial Service
informed us that its has taken actions to improve the quality of export success reporting, such as
revising its export success guidelines and working directly with the USEACs to facilitate the
implementation of the guidelines and ensure greater accuracy and consistency, and compliance
with CS policy. It is also developing a training class to help employees (1) understand the new
guidance, (2) improve the quality of export successes, and (3) ensure that trade specialists are
using CMS to record client interaction consistently. Under a proposed reorganization, the
agency also plans to designate a senior- level employee in ODO to review export success
reporting nationwide. We support all of these actions, but CS should ensure that all appropriate
staff, including the senior ODO official, are held accountable for carrying out their
responsibilities with regard to export success reporting.

Recommendations. Commercial Service should
       � monitor the implementation and adequacy of its initiatives for improving export
          success reporting and review, and ensure that they have the desired impact of
          enhancing both the reporting process and management oversight;
       � incorporate language into the new export success guidelines that addresses how to
          report export successes for a financial institution; and
       � ensure that reported successes that did not occur are deleted from the database.




       18
            Ibid.


                                                13

U.S. Department of Commerce                                                      Final Report IPE-16402

Office of Inspector General                                                                 March 2004





ITA agrees that management oversight of export success reporting can be strengthened across
the field as well as in headquarters. In its response to the Chicago USEAC Network inspection
report, 19 Commercial Service outlined the actions it had completed and planned to take to
improve the quality of export success reporting, such as the development of harmonized
performance standards; creation of a training class to help personnel understand the new
reporting guidance, improve the quality of export success narratives, and ensure that trade
specialists are using CMS to record client interaction consistently; and the designation of a
senior- level official in headquarters to be responsible for ensuring that export successes are of
high quality and that there is consistency in reporting nationwide. We agree with Commercial
Service’s actions and support the designation of this senior level official to ensure that export
successes are thoroughly reviewed by CS headquarters personnel.

In addition to those efforts, ITA states that its Office of Chief Financial Officer (CFO) will
conduct several on-site verification and validation reviews of export success data as well as other
performance results data, during the second half of this year. The purpose of these reviews will
be to serve as an oversight authority to ensure data sources that are used in Department
documents (e.g., ITA Performance and Accountability Report) are accurate and properly
prepared and that any duplicate or overstated export successes are deleted from the database. In
its response to the draft report on the Pacific Northwest USEAC Network Inspection, ITA also
states that Commercial Service’s Office of Planning has implemented an oversight function to
work in tandem with ODO to ensure that there are no duplications within FY 2003 and FY 2004
export success data. 20

We fully support ITA’s effort to improve the quality of export success reports and the reporting
of other performance data, however, we note that it may not be necessary to conduct on-site
verifications since ITA’s CFO staff has access to export success reports via eMenu and client
counseling reports via CMS at Commerce headquarters. As part of its action plan, we request
that ITA discuss the methodology it will employ to conduct its on-site verification and validation
reviews of export success and other performance data.

With regard to the recommendation that language be incorporated into the export success
guidelines to instruct trade specialist on how to report an export success for a financial
institution, ITA stated that the CS Performance Measures Group will develop draft language to
address the reporting of such export successes. We support this effort by ITA, and request a
copy of the revised export successes guidelines, which incorporate this new reporting instruction
for export successes realized by financial institutions.

C.      Chain of events for an export success is not always clearly documented

We examined the client records for the export successes selected for review to ascertain the
chain of events that led to the reported outcome. According to the guidelines, CMS client entries

        19
        Ibid.
        20
        Pacific Northwest USEAC Network Generally Operates Well, but Export Success Reports Need More
Management Scrutiny (IPE-16507).


                                                  14

U.S. Department of Commerce                                                                Final Report IPE-16402
Office of Inspector General                                                                           March 2004

must include sufficient supporting documentation such that anyone reading the documentation
would understand the link between the CS service provided and the result reported. For many
export successes, we could not find CMS entries that clearly discussed the counseling provided
or demonstrated a direct link between the value-added assistance rendered and the reported
outcome. CMS did not contain any supporting records for a number of export successes as well.
The link between the CS service provided and the result reported was especially difficult to trace
for increase-to- market21 (ITM) exports. As indicated in the guidelines, for a trade specialist to get
credit for an ITM, specific new assistance must be provided to the firm.

At the same time, many CMS entries were created weeks and sometimes months after
communication with a client or an out-of-office visit. Currently there is no set time period for
trade specialists to update their client session records within CMS. However, we believe that
regularly updated records, supported by sufficient documentation to verify the communicatio n of
the success, would help ensure that available performance data is timely and accurate, and would
facilitate client follow- up. In its response to the draft report on the Chicago USEAC Network, 22
Commercial Service informed us that it is taking action (i.e., developing a training class) to
ensure specialists consistently record client interactions in CMS.

Recommendations. The Commercial Service should
     �•  revise its new export success guidelines to incorporate a time frame within which
          trade specialists must update their client records; and
     �•  ensure that office and network directors—as part of their review process—review
          CMS client records and verify that there is sufficient supporting documentation
          for each reported export success.



ITA agrees that it is important for trade specialists to input counseling sessions and update CMS
records on a timely basis. In particular, ITA states that as a best practice, trade specialists should
record client interactions within 48 hours of retur ning to the office and review their activities on
a monthly basis to ensure that all activities are updated in CMS. ITA noted that it would see to it
that CMS records are updated weekly. ITA also agrees that client records should include
sufficient supporting documentation for each reported export success. Specifically, ITA states
that the CFO’s staff will ask Commercial Service to begin to certify that all reported client
records include sufficient supporting documentation and will periodically ask Commercial
Service for detailed back-up material on a random sample of records. We agree with the actions
outlined and request that, as part of its action plan, ITA state how the new CMS reporting
instructions will be disseminated and the process for certifying client records.




        21
            An increase-to-market success is when a U.S. firm makes additional export sales in markets where it is
already active.
         22
            IPE-16136.


                                                        15

U.S. Department of Commerce                                                              Final Report IPE-16402

Office of Inspector General                                                                         March 2004


D.      Services to repeat clients may limit assistance available to new clients

We reviewed the lists of clients that generated export successes for the Philadelphia USEAC
Network for FYs 2001, 2002, and 2003. We found that some trade
specialists and office directors reported multiple export successes for An  NTE success occurs when a
                                                                        U.S. firm makes its first sale into
the same clients year after year. We also found few new-to-export any foreign market. An NTM
(NTE) successes in comparison to new-to- market (NTM) and success occurs when a U.S. firm
increase-to- market (ITM) successes for fiscal years 2002 and 2003 with       some existing level of export
                                                                        activity makes a sale in a new
(see Chart 1).                                                          market, enters into a legally
                                                                                     binding agreement, or introduces
                                                                                     new products or services that
Trade specialists told us that realizing NTE successes is difficult                  require a different channel of
because it can take up to 2 years for a company new to exporting to                  distribution in a market to which it
make a successful transaction. Although we understand this                           already exports.
constraint, we question the few NTE successes for clients who have
been in USEAC portfolios for more than 2 years. Trade specialists Source: Commercial Service.
also reported being under intense pressure to meet their success
quotas, and as such, continue to work closely with existing clients, who are more likely to realize
export transactions.

        Chart 1: Philadelphia USEAC Network: Export Success Types

                                      Success Type Data
              300
                                            255
                                                                          234
              250                                   212
                                                                   190
              200
              150
              100
                        34    36
               50
                0
                      New-to-Export       New-to-Market         Increase-to-Market

                                          FY 2002     FY 2003

        Source: Commercial Service.

We understand that trade specialists are expected to cultivate client relationships over time and
assist existing exporters to expand into new markets, and that there is no limit on the number of
export successes from each client. We are concerned, however, that if trade specialists are
focusing on repeat clients who can generate export successes, they will not be available to assist
new clients who require more export assistance but might not generate immediate successes.
The success type data suggest that trade specialists may not be focusing enough on clients, who
are just starting to export, given the low number of new-to-export successes for FYs 2002 and
2003.




                                                      16

U.S. Department of Commerce                                                     Final Report IPE-16402
Office of Inspector General                                                                March 2004

Recommendation. Commercial Service needs to ensure that trade specialists are adequately
reaching out to and counseling U.S. firms interested in developing export business.



In responding to our draft report, ITA agreed that trade specialists should reach out to and
counsel U.S. firms interested in developing export business, however it also noted that trade
specialists are also responsible for developing relationships with clients over the long-term. We
understand that Commercial Service has limited resources, and must ensure that long-term
clients as well as more established exporters are not neglected, while concurrently uncovering
and assisting firms that may be interested in exporting. We also recognize that some firms may
be new clients to Commercial Service, but not new to exporting, and therefore do not meet ITA’s
definition of a new-to-export firm.

ITA indicated pride in its results in the area of new client development and stated that it is
“looking at a number of options to motivate trade specialists to devote more time to new client
development.” ITA highlights that the Philadelphia USEAC Network has begun to track for
each trade specialist not just the number of export successes reported, but also the number of
clients for which export successes were reported. It also has initiated “Bottom Line”
performance awards, which recognize the importance of reporting export successes from a broad
number of clients.

We support the actions initiated by the Philadelphia USEAC Network as a means to stimulate
client development. However, because one of ITA’s primary performance measures is to
increase the number of U.S. firms exporting for the first time, we request that ITA, in its action
plan, provide additional details of the specific steps it has taken or is planning to take to increase
exporting activity by new-to-export firms.

E.     Performance of the NOVA USEAC needs to be evaluated

As part of our inspection objectives, we reviewed the performance statistics for each export
assistance center within the Philadelphia network for FY 2003. We reviewed each office’s
performance, examining not only export successes, but also the number of counseling sessions,
number of clients counseled, and the number of in and out-of-office meetings as well as joint
meetings with trade partners. Based on our analysis of the data, we are concerned by the poor
performance of the Northern Virginia (NOVA) USEAC. Although the staff at NOVA
impressed us as being competent and well-qualified, their performance results demonstrate a less
than proactive approach to trade promotion and outreach.

Table 1 compares various measures of performance for NOVA trade specialists with specialists
in three other network USEACs, and shows that, overall, NOVA performed significantly below
its counterparts.




                                                  17

U.S. Department of Commerce                                                               Final Report IPE-16402

Office of Inspector General                                                                          March 2004


Table 1: Trade Specialist Performance Data (FY 2003)
 Average Number of:                    NOVA           Baltimore       Philadelphia     Trenton

 Out-of-Office Meetings                  5.8              32.5           50.7              145.0
 Joint Meetings with Partners            0.3              50.5           34.7              49.5
 Clients Counseled                       25.0             99.0           91.0              121.0
 In-Office Meetings                      6.5              18.0           3.7               15.0
Note: NOVA’s average was calculated using the data of its 4 part-time trade specialists. Baltimore and Trenton
averages were calculated using the data of their 2 full-time trade specialists, and Philadelphia’s average was
calculated using data from that office’s 4 full-time trade specialists. According to ODO management, though the
NOVA staff was part-time, ODO expected them to meet the same performance measures as the staff of the other
USEACs. For example, all trade specialists at a grade 13 were expected to have at least 100 out-of-office meetings
a year.
Source: Commercial Service.

During our period of review, the NOVA USEAC staff consisted of an office director, 4 trade
specialists, and 1 foreign service officer. All four trade specialists work part-time and two of
them telecommute a set number of hours each week. Given the office staffing, in FY 2002, the
NOVA USEAC volunteered to pilot an office goal approach to achieve export successes. While
each trade specialist and the office director has an individual target goal, the office is measured
as a whole on the number of export successes generated. For FY 2002, Team NOVA had an
export success goal of 89, but reported 74 export successes. For FY 2003, Team NOVA had an
export success goal of 99, but reported just 54 export successes, meeting just 55 percent of its
goal. Staff attributed their poor performance to several factors: (1) being a relatively new office
(established in FY 1998), (2) having a territory consisting of predominately service firms and
government contractors, (3) having a young client portfolio, which is just now realizing export
successes, and (4) frequently having to host visitors because of the USEAC’s close proximity to
CS headquarters, which has diverted their attention from client responsibilities.

While these factors are not without effect, based on our conversations with ODO management,
the former network director, NOVA staff, and trade partners, it appears that the USEAC’s poor
performance is more a reflection of a passive approach to trade promotion and outreach,
resulting from the absence of stable, long-term office management (see chapter 1) and strong
trade partner relations; inadequate strategic guidance from the recently departed network
director; and the lack of full- time, on-site staff.

We do not mean to imply that the NOVA USEAC is not providing valuable services to U.S.
companies. In fact, several NOVA clients reported being quite pleased with the center’s
counseling and products. However, we believe it can do much more to cultivate clients and trade
partner relations, promote Commercial Service products and services, and thus expand the export
activity in the community it serves.

Recommendation. Commercial Service should evaluate the needs and staffing of the NOVA
USEAC, and take steps to improve the office’s performance, leadership, trade promotion, and
outreach.




                                                        18

U.S. Department of Commerce                                                Final Report IPE-16402

Office of Inspector General                                                           March 2004





ITA reports that it is taking aggressive steps to improve the operations of the NOVA USEAC. In
particular, over the past two months, Commercial Service has assigned two foreign service
officers/trade specialists to NOVA and placed a permanent office director. In addition, to
improve trade promotion activities throughout Virginia, the NOVA USEAC and Richmond
USEAC now report to the same USEAC Network (Charlotte) and have statewide industry
responsibilities. This is expected to increase opportunities for statewide initiatives and
collaboration between the two USEACs and with trade partners.

ITA also states that management will increase the new client and partner development
performance measures for NOVA. Specifically, trade specialists will have assigned out-of-office
visits, counseling, and export success goals. Additional full-time employee assignments to
NOVA will be considered depending on the results of an ongoing ITA reorganization. ITA
added that management will be careful that any future assignments to NOVA should strengthen
industry-specific client services and statewide collaboration. The actions taken and proposed by
ITA meet the intent of our recommendation.




                                              19

U.S. Department of Commerce                                                             Final Report IPE-16402
Office of Inspector General                                                                        March 2004

III. 	   Inadequate Oversight of Network Travel Has Permitted Questionable Travel
         Practices and Reimbursements

The Federal Travel Regulation (FTR) governs travel and transportation allowances for federal
civilian employees, including reimbursable amounts for daily expenses (per diem rates), and
policy and guidelines for claiming reimbursement. 23 Commercial Service’s general compliance
with the FTR is assured by the Department of Interior’s (DOI’s) National Business Center
(NBC), which processes and audits all ITA travel vouchers to verify that the travel is authorized
and that per diem and other expenses are properly claimed. However, NBC does not question
the necessity of the travel for which reimbursement is sought or any other management decision
regarding it. These responsibilities belong to the agency officials who authorize and certify each
instance of travel.

Our review of Philadelphia network travel vouchers revealed a number of instances in which CS
certifying officials did not properly exercise this authority, with the result that questionable
practices were followed and potentially unnecessary expenses were incurred and reimbursed, all
of which may have led to the circumvention of FTR requirements and payment of inappropriate
expenses.

A.	      Appropriate signatures were not on travel claims

FTR Section 301-71.203 states that the traveler must ensure that all travel expenses are prudent
and necessary and submit a proper claim for their reimbursement. 24 The authorizing/approving
official must review the completed claim to ensure that it is properly prepared in accordance with
regulations and agency procedures prior to authorizing payment. The official’s signature on the
form indicates that this review has been conducted. The FTR allows an authorizing/approving
official to delegate his/her respons ibilities, however, it discusses at Sections 301-71.200 and 301­
71-203, that an authorizing/approving official designee should be in a management /supervisory
position.

We found instances in which someone other than the traveler prepared and signed claims in
order to expedite the processing of vouchers while the traveler continued to travel. In addition,
the approving official, the national director for the eastern region (located at CS headquarters),
delegated his signature authority to administrative field support staff. Both the field staff and the
national director for the eastern region stated that the delegation to sign the vouchers did not
include responsibilities for determining whether the travel was prudent and necessary; according
to the natio nal director for the eastern region and field staff, when acting under such delegation,
the field staff only reviewed vouchers for completeness. Consequently, these vouchers were
never subjected to the authorizing official’s review and approval, and in some cases the
traveler’s certification that the voucher information was true and correct—a violation of both the
requirements and intention of the FTR. This delegation reportedly occurred because the national
director for the eastern region was not familiar with the new electronic travel management


         23
           41 CFR Chapters 300 – 304.
         24
           FTR §301-52.2 and Appendix C to Chapter 301 specify the traveler, commercial transportation, travel
expense, and accounting and certification information required on travel claims.


                                                       20

U.S. Department of Commerce                                                         Final Report IPE-16402
Office of Inspector General                                                                    March 2004

software that was being piloted. (See section D at page 24 for a discussion of the electronic travel
management software.)

Recommendation. Commercial Service must ensure that (1) travelers sign their own travel
vouchers to certify that the travel was taken and the costs claimed were incurred, and (2) only the
authorizing/approving official (or appropriate designee) reviews, approves, and signs the
vouchers.


ITA concurs with our recommendation stating that the problems we identified should not have
occurred. ITA reports that its guidelines clearly state the proper authority for approving travel
orders and vouchers and that it has taken appropriate action. As part of ITA’s action plan, we
request additional information on the actions ITA has taken to ensure compliance with its travel
guidelines.

B.      Travel claims were not well documented

Commercial Service issues blanket travel orders to field
                                                                           Travel Orders
staff for use when conducting official travel, including Travel orders authorize government
local travel reimbursement. We reviewed a number of          employees to travel. FTR Section 301­
travel voucher claims and found instances where USEAC 71.100 states that the purpose of travel orders
                                                             is to provide
staff lodged with friends or family, but had not clearly            � the employee with information
documented the work-related purpose for visiting the                    regarding what expenses will be
area. For example, one travel voucher covered a 4-day                   paid;
                                                                    � vendors with necessary
trip over the Christmas holiday. The traveler sought                    documentation;
reimbursement for transportation and 3 days per diem for            � financial information necessary for
meals and incidental expenses (per diem for Christmas                   budgetary planning; and
                                                                    � justification for the travel.
day and lodging were not claimed). Although the
employee in question indicated that he had a business        The DOC Travel Handbook, Section 301­
purpose for this trip, he could not recall the specifics and 1.102, states that limited open travel orders
                                                             (i.e., blanket travel orders) authorize travel
the purpose was not documented. Our review of the            for individuals whose official duties require
USEAC office calendars showed no meetings at the them to travel frequently, generally in a
destination, and the voucher contained no documentation circuit type of route.
of the trip’s purpose. According to handwritten notes on
the voucher, DOI questioned the travel, but as the authorized signatures were present, the
traveler was reimbursed for the expenses claimed.

While staying with friends or relatives is usually a savings to the government—the work-related
purpose of the official travel should be approved prior to the trip and adequately documented to
show that the governmental purpose and necessity are clear. Prior notification, such as an e-
mailed itinerary, and an explanation of the purpose of the trip on the voucher are examples of
how the justification for travel could be better documented.

FTR Section 301-11.10 also requires travelers to record the date they depart from and arrive at
the official duty station or other point at which officially authorized travel begins or ends and for
all intervening points visited. We found a voucher for which the travel information did not



                                                    21

U.S. Department of Commerce                                                   Final Report IPE-16402
Office of Inspector General                                                              March 2004

correspond with the accompanying receipts—arrival and departures times differed, as did
destinations. For example, the voucher shows a June 3rd reimbursement request for a train ticket
from the traveler’s residence to Baltimore, while the train receipt is dated June 4th , departing
from Philadelphia and going to Harrisburg. Consequently, the traveler may have returned to the
official duty station (Philadelphia), which may have altered the per diem amount to which the
traveler was entitled.

Recommendations. CS managers should make certain that employees and managers adequately
document and justify the purpose and necessity of official travel. In addition, employees should
be held accountable for properly recording departure and arrival dates and times for all places
visited during temporary duty travel, including the trip’s point of origination and conclusion.



In its response, ITA agrees with our recommendation that all official travel must be adequately
documented and justified. ITA states that it has taken action to assure that travel regulations are
followed. As part of the agency’s action plan, we request additional information on the actions
ITA has taken to ensure compliance with travel regulations.

C.     Excessive use of a rental car was not questioned

The FTR states that travelers must use the most expeditious means of transportation practicable
and commensurate with the nature and purpose of their duties. It also states that the most
advantageous method of transportation is presumed to be common carrier (airline, train, bus,
etc.), as this is generally the most efficient in terms of travel time, cost, and use of energy
resources. The regulations emphasize that decisions to use a method of transportation other than
common carrier must not be based on the traveler’s personal preference or convenience.
However, “[w]hen your agency determines that your travel must be performed by automobile, a
Government automobile is presumed to be the most advantageous method. . . .” unless the
agency determines that a rental vehicle is warranted, in which case it must specifically authorize
such use. 25 An authorizing/approving travel official, and not a traveler, is responsible for
determining the best mode of transportation for official travel.

In our review of the travel vouchers, we found one traveler submitted claims totaling $6,960 in
rental car charges and an additional $2,112 in parking, tolls, and fuel charges incurred over an 8­
month period. Travel was to locations both in the immediate vicinity of the traveler’s duty
station as well as to other network locations. The employee—who did not own a car—generally
rented one for several weeks at a time and used it for personal and business purposes; though, he
sought reimbursement only for the days on which government travel occurred.

Although local travel (trips within a 50- mile radius of the employee’s duty station or residence)
does not require a travel order, the blanket travel orders issued to the field staff contains
language for local travel, thus allowing travelers to rent a car. We found that CS management
was not monitoring or questioning the extensive use and subsequent costs of the rental, or the
local trips, for which there may have been other accessible and cost-effective transportation
       25
            FTR, Sections 301-10.5 and 301-10.450.


                                                     22

U.S. Department of Commerce                                                        Final Report IPE-16402
Office of Inspector General                                                                   March 2004

options. The train was a viable mode of transportation for many of the trips in question, but was
used only on occasion. When asked about the high rental costs the employee incurred, CS
officials responded that an automobile is sometimes more practical, particularly when multiple
locations are being visited. We note that, if this was the case, the employee could have cut costs
to the government by two-thirds had he used a government car. While the General Services
Administration (GSA) does not offer short-term rentals, 1-year leases are available at a cost of
$2,016 for a compact car and $3,012 for a midsize vehicle, and per mile rates of 10-½ cents and
12-½ cents, respectively, which includes all maintenance and fuel expenses. Given this
traveler’s frequent vehicle use, and the $9,072 in costs incurred over 8 months, leasing a
government car for a year would have been a much more cost-effective alternative.

Using a rental car for both personal and government business raises other concerns. Payment for
the rental car was made with the employee’s government travel card. Government policy
expressly prohibits using the travel card for personal expenses, although a Commerce Bankcard
Center official stated that employees on official travel are allowed to “tag on” a day or two of car
rental charges for personal use, that are no n-reimbursable. However, in just one example, when
we compared travel vouchers to the corresponding rental car receipt, we determined that the
employee was reimbursed over a 20-day car rental period for 7 days of local travel and 8 days of
temporary duty travel (TDY). He was not reimbursed for the 5 days of personal use. The figure
below illustrates how the car was used over that 20-day period. It should also be noted that the
local travel voucher did not indicate travel purpose or location.

Figure 3: Rental Car Usage
  Sunday        Monday        Tuesday     Wednesday       Thursday        Friday      Saturday
                                                                         21-Mar        22-Mar
   23-Mar         24-Mar         25-Mar      26-Mar        27-Mar        28-Mar        29-Mar
   30-Mar         31-Mar          1-Apr       2-Apr         3-Apr         4-Apr         5-Apr
    6-Apr          7-Apr          8-Apr       9-Apr      10-Apr – car returned
Color Key:      Local Travel              No travel*                  TDY
* No travel reimbursement was claimed.
Source: Department of the Interior

Both DOC and ITA travel officials stated that renting a car for an extended period of time and
using it for a mix of business and personal use is not allowed. The officials stated that it is the
responsibility of the travelers’ supervisor to monitor and question such inappropriate use. In
addition, the extent that the government may be liable for any personal or property damage that
occurs while the car is being used for personal transportation should have been a concern for CS
management, yet CS officials never questioned this or the excessive use of a rental car.

Recommendation. CS officials responsible for travel authorization and approval must provide
adequate oversight of travel vouchers, including authorization and use of rental cars, to ensure
that travelers are adhering to federal requirements and guidance, to identify and carefully review
questionable practices, and to eliminate any that are counter to the best interests of the
government.




                                                   23

U.S. Department of Commerce                                                            Final Report IPE-16402

Office of Inspector General                                                                       March 2004





In its response to the draft report, ITA indicated that the Philadelphia USEAC Network has taken
steps to ensure adequate oversight of all travel vouchers and compliance with travel-related
requirements and guidance. ITA agreed that the delegation of travel authorization and approval
should only be assigned to another authorized supervisor. The former national director for the
eastern region acknowledged that it was his responsibility to approve travel. Also in the
response, ITA stated that the former Philadelphia network director recorded his travel
destinations and intended activity on the Philadelphia office calendar. As part of our inspection,
we reviewed the office calendar for each export assistance center within the Philadelphia
USEAC Network for FY 2003. We were unable to find notation on those calendars to support
many of the former network director’s trips.

Specifically with regard to car rentals, ITA reviewed ODO’s rental car use for FY 2004. ITA
stated that it did not find similar excessive car rental issues elsewhere within the organization.
ITA also reports that the NFST has added a review of rental car usage to its internal control
review guidance and that the Philadelphia USEAC Network has taken steps to ensure adequate
oversight of all travel vouchers to ensure that all travel practices are in the best interest of the
government.

We support the efforts taken to ensure compliance with federal travel requireme nts and guidance.
The actions taken meet the intent of our recommendation.

D.      Transition to an electronic travel manager software was problematic

Many of the problems                                 National Field Support Team
we found may have ODO established the NFST in 2001 to relieve trade specialists of their administrative and
been the inadvertent financial workload so they could devote more time to clients and core mission activities.
result    of   a     new One NFST field support specialist (FSS) is assigned to each USEAC network as the
electronic         travel primary contact for administrative processing for all network employees. An
manager        software administrative support agreement signed by the network director, the FSS and the NFST
system that was being director, spells out FSS’ responsibilities for budget formulation allocation,* reporting,
piloted. In an effort to and reconciliation; human resources; hospitality requests; gifts, and bequests;
move away from a management of procurement, travel, time and attendance, awards, trust funds, and
paper-based system for      inventory; and liaison for leases and memoranda of understanding. The purpose of the
processing         travel agreements is to enable ODO to, among other things
claims,      Commercial          � place more resources into export promotion;
Service tested a travel          � establish administrative consistency across the country;
management software              � improve budget formulation, allocation, and management;
package during FY                � enhance administrative customer service and accountability; and
2003. The pilot was              � improve the morale of administrative staff.
limited to two USEAC
networks—Philadelphia *The FSS works with the network director to formulate the budget and set allocations.
and New York—and
the National Field Support Team (NFST). Like most electronic travel systems, the program
allowed for the electronic filing and processing of travel orders and travel vouchers. According



                                                      24

U.S. Department of Commerce                                                               Final Report IPE-16402
Office of Inspector General                                                                          March 2004

to those familiar with the piloted system, the software program was difficult to use and did not
allow for any customization.

Because the implementation of the pilot was limited, apparently not all authorizing and
approving officials were trained on using the software. As previously mentioned (see page 20),
the national director for the eastern region delegated his electronic signature authority to an
NFST team member. However, both the NSFT team member and the national director for the
eastern region acknowledged that the delegated authority did not include management oversight.
As a consequence, vouchers were authorized with no management scrutiny. CS officials
suggested that the 100 percent audit conducted by DOI is sufficient oversight. We disagree.
DOI is not responsible for ensuring that the travel conducted is in the best interest of the
Commercial Service. Only CS managers authorize and approve staff travel.

CS officials also faulted the electronic travel system for its lack of functionality to add travel
justification on the vouchers. Although the program has some limitations, it contains a comment
section that could have been used to provide additional documentation. As a result of the
problems encountered with the software, Commercial Service has abandoned using this
particular system. However, to meet a September 30, 2006, electronic travel system
requirement, ITA intends to test two other travel management systems in FY 2004. 26 Therefore,
as Commercial Service and ITA continue to move toward an electronic, paperless travel
manageme nt system, they must ensure that any system they test or adopt provides for proper
oversight.

Recommendation. Commercial Service must ensure that any electronic travel management
system piloted or formally adopted allows for sufficient management oversight and operates
under strict quality control procedures that identify and resolve irregularities in travel voucher
documentation, authorization, or other processing requirements.



ITA is currently working with the Department in selecting an electronic travel management
system. ITA stated that the system selected will allow for sufficient management oversight and
operate under strict quality control procedures. The actions outlined by ITA meet the intent of
our recommendation.




        26
            Government-wide migration to electronic travel processing (planning, authorizing, and reimbursing) is
1of 25 electronic government (E-Gov) initiatives currently in progress.


                                                        25

U.S. Department of Commerce                                                      Final Report IPE-16402
Office of Inspector General                                                                 March 2004

IV.	    Financial and Administrative Operations Are Generally Sound, with a Few
        Exceptions

Beyond poor travel oversight, we found no major problems with the Philadelphia USEAC
Network’s financial and administrative operations, but identified a few areas that could be
improved. Overall, operations are sound: assets are accounted for and properly used; no cash
collections are made; credit card and check collections are entered into eMenu; and inventory,
and time and attendance records are properly managed. Our findings also reflect those of an
internal control review of the Philadelphia network conducted in July 2002 by NFST staff not
affiliated with the network. NFST identified no material problems with the administrative
operations for the period October 1, 2001, to April 30, 2002. Much of the credit for the
network’s sound financial and administrative operations goes to the NFST personnel assigned to
both the network and CS headquarters.

The network’s field support specialist (FSS)? a long-time Commercial Service employee—is
located off-site in Newtown, Pennsylvania. As part of our review, we asked network staff about
their satisfaction with the FSS and NFST’s services, and whether the establishment of NFST has
indeed allowed them to focus more on client needs. Overwhelmingly, they stated that the FSS is
helpful, knowledgeable, and responsive, and that they spend much less time on administrative
matters since NFST’s creation, which has allowed them more time for core responsibilities.

A.	     Some cost-cutting measures are being taken

To its credit, ODO management is aggressively seeking to reduce its space leasing costs for
USEACs nationwide, and in FY 2003, cut $59,536 from the Philadelphia network’s lease costs
by relocating the Trenton USEAC to free, shared office space with three of its trade partners.
Although the Trenton USEAC director and trade specialists were successful in finding suitable
space, they apparently received no written guidelines or criteria to help them in their search.
Rather, they received oral guidance from CS management to look for (1) a location within the
same congressional district in which they are currently located, (2) reduced or free lease space
with a trade partner, and (3) a site easily accessible to public transportation or major highways.
As we complete our cross-cutting report on the Commercial Service’s domestic operations, we
will further research the process for identifying and selecting office locations and consider
whether written guidance would enhance the effort.

B.	     Purchase cardholders are exceeding spending thresholds

The Commerce Acquisition Manual (CAM) 27 states, “the purchase card may be used to purchase
monthly cellular phone airtime, monthly pager service, monthly internet services, etc., as long as
the total for each type of service does not exceed $2,500 in the course of a Fiscal Year,”
(emphasis added). However, we found that two network cardholders exceeded the annual $2,500
limit—spending $10,126.08 and $6,483.96, respectively, for cellular telephone service. Both
cardholders stated they were unaware of the CAM requirement.

        27
         Commerce Purchase Card Procedures, Chap. 1313.301 of Commerce Acquisition Manual (U.S.
Department of Commerce, April 5, 2000, modified February 1, 2004), 10.


                                                  26

U.S. Department of Commerce                                                           Final Report IPE-16402
Office of Inspector General                                                                      March 2004

We discussed this issue of cell telephone expenses exceeding the annual $2,500 limit with an
official in the Office of Commerce Acquisition Performance Policy and Support whose position
is that the purchase card limit should remain at $2,500 in line with the small purchase
requirement. In the event that actual or projected annual expenditures exceed $2,500, purchase
cardholders should discuss other methods for procuring cell telephone service with their
procurement officials. An example of other payment methods would be procuring cell telephone
service through a blanket purchase order.

Recommendations. Commercial Service should ensure that purchase cardholders and
authorizing officials are aware of and adhere to the $2,500 annual purchase card limit for cell
telephone service. If cell telephone costs exceed $2,500, CS officials should instruct cardholders
to work with procurement officials to identify other methods for procuring cell telephone service.



ITA agreed with our recommendations and stated that purchase card limits were communicated
to NFST staff at the November 2003 NFST annual meeting. In its response to the draft report on
the Pacific Northwest USEAC Network inspection, ITA discussed that it has initiated a project to
address cell phone acquisition and management to conform to the Department’s new
telecommunications policy. ITA also stated that it is working to develop a new system for cell
phone purchases that complies with the telecom policy, as well as procurement requirements.
The actions taken and proposed meet the intent of our recommendations.

C.      Advance payments were made for cellular telephone expenses

Title 31 of the U.S. Code sets forth a general prohibition to agencies against making advance
payments for goods or services. Specifically, 31 U.S.C. Section 3324, provides that “…a
payment under a contract or to provide a service or deliver an article for the United States
Government may not be more than the value of the service already provided or the article already
delivered.” According to the General Accounting Office’s (GAO’s) Principles of Federal
Appropriations Law, the primary purpose of this section is “to protect the governme nt against the
risk of nonperformance.”28

In reviewing purchase card statements, we found that the Philadelphia network prepaid $5,800 of
projected FY 2004 cellular telephone charges in FY 2003. According to NFST staff, the
estimated payments, made in September 2003, were projected from FY 2003 monthly cell
telephone costs. We discussed this finding with the NFST director, who agreed that advance
payments for monthly recurring expenses should not be made.

Recommendation. Commercial Service should make clear to authorizing officials and NFST
staff that advance payments should not be made without specific statutory authority.



In its response to our draft report, ITA states that during a March 10, 2004, NFST conference
        28
         “Advance Payments,” Chap. 5 in Principles of Federal Appropriations Law, Vol. 1, (United States
General Accounting Office, July 1991), 5-42.


                                                     27

U.S. Department of Commerce                                                   Final Report IPE-16402
Office of Inspector General                                                              March 2004

call, all NFST members were informed that paying for services before they are received is not
acceptable. ITA also states that all bankcard holders and approving officials will be notified in
writing of this to assure compliance with the CAM. In addition, ITA is working to establish a
new system to purchase cell telephone services, which will address the concerns we identified.

We support the actions ITA has completed and proposes to take. As part of its action plan, we
request that ITA provide a copy of the written notification that will be provided to bankcard
holders and approving officials regarding advance payments as well as additional information on
the new system being established to purchase cell telephone services.

D.     Card-sharing violation resulted in sales tax charges on government purchases

The CAM defines a purchase cardholder as a “Department of Commerce employee authorized
by the Head of Contracting Office (HCO) to be issued a card to purchase goods and services
and/or pay for official expenses in compliance with applicable regulations.”29 A purchase
cardholder is not authorized to share his or her card with anyone. However, we discovered that a
purchase cardholder within the Philadelphia network shared her card number with a coworker.
We also noted that the cardholder account showed sales taxes had been charged on several
purchases. According to the CAM, a “cardholder should ensure that the merchant is aware that
all government purchases are tax-exempt.”30 We discussed the payment of sales taxes with the
cardholder, who informed us that the coworker with whom she shared her card number, may not
have known of the tax exemption for government purchases. We discussed our findings with the
purchase cardholder’s supervisors who subsequently counseled the employee on her
responsibilities as a purchase cardholder. They are also are monitoring the actions of the
cardholder and purchases made with the purchase card to ensure that card-sharing and payment
of sales taxes do not occur again.

The CAM recommends refresher training on purchase card policy and procedures every 5 years,
but notes that “operating units may require additional or more frequent training to update
cardholders and Approving Officials on operating unit procedures, relevant regulatory changes
and/or internal policies/procedures of the servicing acquisition office.”31 We discussed this with
the current Philadelphia network director, who stated that at the midpoint appraisal the purchase
cardholder’s training needs will be evaluated.

Recommendation. Commercial Service needs to provide adequate oversight of purchase cards
to ensure that cardholders (1) do not share their account number or permit others to use their card
and (2) notify all merchants that government purchases are tax exempt.



In its response, ITA stated that the Philadelphia USEAC Network has already taken steps to
educate cardholders of their important responsibilities and enhance oversight of official credit
card usage. ITA added that all new cardholders and approving officials are required to take on­

       29
          CAM, 1.

       30
          CAM, 14. 

       31
          CAM, 6.



                                                28

U.S. Department of Commerce                                                     Final Report IPE-16402
Office of Inspector General                                                                March 2004

line training and that it requires staff to repeat this training every three years. ITA stated that at
the mid-point appraisal it will also review the training history of all cardholders and approving
officials in the network to determine whether refresher training is appropriate. The actions taken
and proposed meet the intent of our recommendation.

E.      Increased oversight of cellular telephone usage is needed

The NFST issues bulletins to communicate uniform policy directives to its team of field support
specialists. Its Cellular Telephone Policy32 provides general principles governing cellular
telephone usage, including reminders that cell telephones are used for official government
business whe n regular telephones are inconvenient, and for official travel when they are more
cost-effective than charging calls to government- issued credit cards. The policy bulletin allows
for limited personal calls for unforeseen circumstances, but stresses that cell telephones may not
be used as a personal benefit or primary mode of communication.

We found cell telephone monthly bills with hundreds of dollars of roaming charges (for example,
$467 in roaming charges for 3 months), several that showed numerous calls to an employee’s
residence, and others that showed an employee had added a second line, which was intended for
personal use, to the government cell telephone account.

Although field support specialists are responsible for reviewing bills for anomalies, and coding
and submitting them for payment, these specialists are not in a position to determine the validity
of the calls made by users. The policy bulletin places that responsibility on the user, requiring
that they

     � obtain monthly itemized statements, and review and verify them for accuracy; and
     � reimburse the government within 15 days of receiving the monthly statement for
           o personal calls when charges exceed the minimum plan, and
           o roaming charges incurred for personal calls.

Despite these policy requirements, we found no evidence that users reviewed their statements
and reimbursed the government for personal calls. When we raised this issue with the NFST
director, he suggested that the internal control review (ICR) process be revised to include a
review element that examines cell telephone usage and practices. We believe, however, that
more could be done to ensure compliance with the policy bulletin, such as, requiring employees
to initial and certify their monthly cell telephone statements and to identify personal calls for
which Commercial Service will be reimbursed.

Recommendations. Commercial Service should strengthen its Cellular Telephone Policy and
procedures to ensure that (1) all cell telephone users certify that they have reviewed their
monthly statements and identified personal charges prior to submitting the bills for payment, (2)
any statement not certified is returned to the user and payment withheld until such review has
occurred, and (3) reimbursement is made for personal charges beyond those permissible under
the policy bulletin. We also recommend that NFST’s current internal control review process be
expanded to include examination of cell telephone usage, plans, and practices.

        32
             Rents, Communication, and Utilities: Policy Bulletin 05-02-002.


                                                         29

U.S. Department of Commerce                                                   Final Report IPE-16402

Office of Inspector General                                                              March 2004





ITA agreed with our recommendations and stated that the Philadelphia USEAC Network will
ensure that all cell telephone users certify that they have reviewed their monthly statements,
identified expenses incurred for personal use, and reimbursed for personal charges beyond those
permissible under the policy bulletin. ITA will also take actions to re-educate cell telephone
users and implement the policy bulletin, such as resending the policy bulletin to all cell telephone
users and reviewing the Department’s newly- issued Telecommunications Policy to ensure CS
guidance is in conformance. In addition, ITA stated that the NSFT internal control review
checklist for cell phone audits will be expanded to include examination of cell telephone usage,
plans, and practices. The actions taken and proposed meet the intent of our recommendations.

F.     Payment of employee parking expenses needs closer scrutiny

NFST’s Rents, Communication, and Utilities Policy Bulletin 33 specifies that parking spaces may
be provided for visiting clients and personal automobiles used regularly to visit clients
(emphasis added). While the policy bulletin provides that the allocation of parking privileges
rests within the local manager’s discretion, it also requires that each office obtain written
permission from their national director to purchase parking spaces. These requests must include
a description of the business need for the parking space(s) and the associated cost the local office
will assume.

We learned that a few offices within the Philadelphia network are paying for employee parking
spaces, but could find no evidence that the NFST policy is being followed. For example, in
addition to paying for 2 parking spaces within its lease, the NOVA USEAC is also paying a total
of $120 a month for 2 parking spaces at a nearby hotel. These additional 2 hotel parking spaces
seem excessive given the office’s few out-of-office visits in FY 2003 (approximately 35), close
proximity to public transportation, and office staffing of 4 part-time trade specialists. We
discussed this finding with the NFST director, who acknowledged that parking space
arrangements were not consistently evaluated and suggested that such review be delegated to the
national director’s staff.

Recommendation. Commercial Service needs to ensure that the purchase of each parking space
is justified, reviewed, and approved in accordance with the NFST policy bulletin.



In its response, ITA concurred with our recommendation and stated that as of March 1, 2004, all
USEACs in the Philadelphia USEAC Network may contract for no more than one parking space.
ITA discussed that this action is consistent with the NFST policy bulletin. ITA also stated that
the NOVA USEAC has also adopted an approach consistent with the NFST policy bulletin and
will reduce the number of funded parking spaces to one space for the director only.




       33
            Policy Bulletin 05-02-001.


                                                 30

U.S. Department of Commerce                                                  Final Report IPE-16402

Office of Inspector General                                                             March 2004


                              SUMMARY OF RECOMMENDATIONS


To strengthen the management and operations of the Philadelphia USEAC Network as well as all
domestic export assistance centers, our recommendations are that the Acting Assistant Secretary
and Acting Director General of the Commercial Service do the following:

Leadership Gaps

       1.	 Ensure that USEAC management positions are filled quickly and that interim
           leadership is closely monitored by headquarters and has the skills to ensure smooth
           continuity of operations (page 5).

Export Successes

       2.	 Monitor the implementation and adequacy of its initiatives for improving export
           success reporting and review, and ensure that the initiatives have the desired impact
           of enhancing both the reporting process and management oversight (page 9).

       3.	 Incorporate language into the new export success guidelines that addresses how to
           report export successes for a financial institution (page 9).

       4.	 Ensure that reported successes that did not occur are deleted from the database (page
           9).

Client Documentation

       5.	 Revise its new export success guidelines to incorporate a time frame within which
           trade specialists must update their client records (page 14).

       6.	 Ensure that office and network directors–as part of their review process–review CMS
           client records and confirm that there is sufficient supporting documentation for each
           reported export success (page 14).

Outreach for New to Exporting

       7.	 Ensure that trade specialists are adequately reaching out to and counseling U.S. firms
           interested in developing export business (page 16).

Performance of NOVA USEAC

       8.	 Evaluate the needs and staffing of the NOVA USEAC, and take steps to improve the
           office’s performance, leadership, trade promotion, and outreach (page 17).




                                               31

U.S. Department of Commerce                                                    Final Report IPE-16402
Office of Inspector General                                                               March 2004

Travel Practices and Reimbursements

        9.	    Ensure that (1) travelers sign their own travel vouchers to certify that the travel
               was taken and the costs claimed were incurred, and (2) only the
               authorizing/approving official (or appropriate designee) reviews, approves, and
               signs the vouchers (page 20).

       10.	    Make certain that employees and managers adequately document and justify the
               purpose and necessity of official travel. In addition, employees should be held
               accountable for properly recording departure and arrival dates and times for all
               places visited during temporary duty travel, including the trip’s point of
               origination and conclusion (page 21).

       11.	    Ensure that CS officials responsible for travel authorization and approval provide
               adequate oversight of travel vouchers, including authorization and use of rental
               cars, to ensure that travelers are adhering to federal requirements and guidance, to
               identify and carefully review questionable practices, and to eliminate any that are
               counter to the best interests of the government (page 22).
.
       12. 	   Ensure that any electronic travel management system piloted or formally adopted
               allows for sufficient management oversight and operates under strict quality
               control procedures that identify and resolve irregularities in travel voucher
               documentation, authorization, or other processing requirements (page 24).

Finance and Administrative

       13. 	   Ensure that purchase cardholders and authorizing officials are aware of and
               adhere to the $2,500 annual purchase card limit for cell telephone service. If cell
               telephone costs exceed $2,500, CS officials should instruct cardholders to work
               with procurement officials to identify other methods for procuring cell telephone
               service (page 26).

       14. 	   Make clear to authorizing officials and NFST staff that advance payments should
               not be made without specific statutory authority (page 27).

       15. 	   Provide adequate oversight of purchase cards to ensure that cardholders (1) do not
               share their account number or permit others to use their card and (2) notify all
               merchants that government purchases are tax exempt (page 28).

       16.	    Strengthen its Cellular Telephone Policy and procedures to ensure that (1) all cell
               telephone users certify that they have reviewed their monthly statements and
               identified personal charges prior to submitting the bills for payment, (2) any
               statement not certified is returned to the user and payment withheld until such
               review has occurred, and (3) reimbursement is made for personal charges beyond
               those permissible under the policy bulletin (page 29).

       17. 	   Expand the NFST’s current internal review process to include examination of cell


                                                 32

U.S. Department of Commerce                                                  Final Report IPE-16402

Office of Inspector General                                                             March 2004


               telephone usage, plans, and practices (page 29).

       18.	    Ensure that the purchase of each parking space is justified, reviewed, and
               approved in accordance with the NFST policy bulletin (page 30).




                                               33

U.S. Department of Commerce                                              Final Report IPE-16402
Office of Inspector General                                                         March 2004

                                                                               APPENDIX A

                                       List of Acronyms


CAM                    Commerce Acquisition Manual
CMS                    Client Management System
CS                     Commercial Service
DEC                    District Export Council
DOI                    Department of the Interior
Ex-Im                  Export-Import Bank of the United States
FSO                    Foreign Service Officer
FSS                    Field Support Specialist
FTR                    Federal Travel Regulation
FY                     Fiscal Year
GAO                    General Accounting Office
GSA                    General Services Administration
ICR                    Internal Control Review
HCO                    Head of Contracting Office
ITA                    International Trade Administration
NBC                    National Business Center
NFST                   National Field Support Team
NOVA                   Northern Virginia U.S. Export Assistance Center
ODO                    Office of Domestic Operations
OIG                    Office of Inspector General
OMB                    Office of Management and Budget
SBA                    Small Business Administration
SBDC                   Small Business Development Center
TDY                    Temporary Duty Travel
USC                    United States Code
USEAC                  U.S. Export Assistance Center
VEDP                   Virginia Economic Development Partnership




                                               34

U.S. Department of Commerce                                         Final Report IPE-16402

Office of Inspector General                                                    March 2004


                                                                    APPENDIX B

                              Agency Response to the Draft Report




                                              35

U.S. Department of Commerce         Final Report IPE-16402

Office of Inspector General                    March 2004





                              36

U.S. Department of Commerce         Final Report IPE-16402

Office of Inspector General                    March 2004





                              37

U.S. Department of Commerce         Final Report IPE-16402

Office of Inspector General                    March 2004





                              38

U.S. Department of Commerce         Final Report IPE-16402

Office of Inspector General                    March 2004





                              39

U.S. Department of Commerce         Final Report IPE-16402

Office of Inspector General                    March 2004





                              40

U.S. Department of Commerce         Final Report IPE-16402

Office of Inspector General                    March 2004





                              41

U.S. Department of Commerce         Final Report IPE-16402

Office of Inspector General                    March 2004





                              42

U.S. Department of Commerce         Final Report IPE-16402

Office of Inspector General                    March 2004





                              43

U.S. Department of Commerce         Final Report IPE-16402

Office of Inspector General                    March 2004





                              44

U.S. Department of Commerce         Final Report IPE-16402

Office of Inspector General                    March 2004





                              45

U.S. Department of Commerce         Final Report IPE-16402

Office of Inspector General                    March 2004





                              46

Pursuant to the Inspector General Act of 1978, as amended, and the Omnibus Trade and
Competitiveness Act of 1988, the Commerce OIG periodically evaluates the operations of
the Commercial Service. Under these authorities and in accordance with the Quality
Standards for Inspections issued by the President’s Council on Integrity and Efficiency,
we conducted an inspection of the Philadelphia U.S. Export Assistance Center Network.

Inspections are reviews the OIG undertakes to provide agency managers with timely
information about operations. One of the main goals of an inspection is to encourage
effective, economical, and efficient operations. Inspections are also conducted to identify
or prevent fraud, waste, and abuse in federal programs. By asking questions, identifying
problems, and suggesting solutions, the OIG helps managers determine how best to
quickly address issues identified during the inspection. Inspections may also highlight
effective programs or operations, particularly if their success may be useful or adaptable
for agency managers or program operations elsewhere.

Major contributors to this report were Kristen Johnson, Carol Rice, and Deborah Holmes,
Office of Inspections and Program Evaluations.
U.S. DEPARTMENT OF COMMERCE
      Office of Inspector General

         Room 7898C, HCHB

14th Street & Constitution Avenue, NW

        Washington, DC 20230


          Internet Web site:


          www.oig.doc.gov

